                            SOCIAL SECURITY
                             Office of the Inspector General

                                    March 17, 2010



The Honorable Sam Johnson
Ranking Member, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

In an October 22, 2009 letter, you asked that we review issues relating to the Social
Security Administration’s application of the good cause provision in the Agency’s
fugitive felon program.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Chairman Pomeroy, Ranking Member John Linder of the Subcommittee on Income
Security and Family Support, and Member Wally Herger of the Committee on Ways and
Means.

If you have any questions, please call me, or have your staff contact Misha Kelly,
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                         Sincerely,



                                         Patrick P. O’Carroll, Jr.
                                         Inspector General

Enclosure

cc:
Michael J. Astrue
Earl Pomeroy
John Linder
Wally Herger


             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT
The Good Cause Provision Under the
      Fugitive Felon Program
           A-01-10-21052




            March 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                              Background
OBJECTIVE
Our objective was to evaluate the Social Security Administration’s (SSA) use of the
good cause provision for fugitive felons and probation or parole violators.

BACKGROUND
On October 22, 2009, Sam Johnson, Ranking Member, Committee on Ways and
Means, Social Security Subcommittee; John Linder, Ranking Member, Committee on
Ways and Means, Income Security and Family Support Subcommittee; and Wally
Herger, Member, Committee on Ways and Means, asked us to review SSA’s application
of the good cause provision in the Agency’s fugitive felon program. 1

Specifically, the Members requested the following.

      (1) The step-by-step procedures by which the Agency determines whether good
          cause exists.
      (2) How often the Agency found good cause in the fugitive felon program.
      (3) Fugitive cases where good cause was not found and whether it appeared the
          person met the good cause criteria (for example, the offense was non-violent and
          not drug-related).
      (4) Based on this preliminary review, whether the Agency is effectively administering
          the good cause provisions in the fugitive felon program.
The Social Security Act prohibits the payment of Title II and XVI benefits to a beneficiary
who is fleeing to avoid prosecution, custody, or confinement for a felony—and to a
beneficiary who is violating a condition of probation or parole—unless the Agency
determines that good cause exists for paying such benefits. 2

Before SSA takes action to suspend benefit payments, it sends the beneficiary a notice
about the warrant information the Agency has received and the impact it may have on
benefit payments. The notice also advises the beneficiary of his or her rights to file an
appeal or request a waiver. Finally, the letter informs the beneficiary of the conditions
that must be met for the Agency to find there is good cause to continue the benefit
payments.

See Appendix B for additional background information on SSA’s fugitive felon program
and Appendix C for our scope, methodology, and sample results.

1
    The fugitive felon program also includes probation or parole violators.
2
 The Social Security Act §§ 202(x)(1)(A)(iv)-(v) and (B)(iii)-(iv), 42 U.S.C. §§ 402(x)(1)(A)(iv)-(v) and
(B)(iii)-(iv), as amended by § 203(a) of the Social Security Protection Act of 2004, Pub. L. No. 108-203
§ 203(a), March 2, 2004, and the Social Security Act §1611(e)(4), 42 U.S.C. § 1382(e)(4), as amended by
§ 203(b) of the Social Security Protection Act of 2004, Pub. L. No. 108-203 § 203(b), March 2, 2004.

The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)                              1
                                                          Results of Review
Generally, SSA administered the good cause provision effectively when individuals
requested exemption under the good cause provision. SSA informs beneficiaries of the
good cause provision, but the Agency only reviews cases for possible good cause
exemptions when requested by the beneficiary. Responses to the specific information
Congress requested are below.

Step-by-Step Procedures by which the Agency Determines Whether Good Cause
Exists

SSA obtains the names, dates of birth, and Social Security numbers of individuals with
outstanding warrants from law enforcement agencies. SSA verifies the individuals’
identities through its Enumeration Verification System, and the Office of the Inspector
General (OIG) confirms the warrants are still valid. The information is then recorded in
the Agency’s Fugitive Felon SSA Control File (FFSCF). 3

Before SSA takes action to suspend benefit payments, it sends the beneficiary a letter
about the warrant information it has received and the impact the unsatisfied warrant(s)
may have on benefit payments. The notice explains how benefits could continue under
the good cause provisions of the fugitive program. (If an individual is not receiving
benefits, a notice of suspension is not sent. However, if benefits that should have been
withheld because of fugitive status were paid before benefits were suspended or
terminated, SSA sends an overpayment notice that tells the beneficiary he or she can
appeal the overpayment.) The burden to establish good cause is on the beneficiary.

The Agency will determine that good cause exists and continue benefit payments if a
court of competent jurisdiction found the person not guilty, dismissed the charges,
vacated the warrant for arrest, or issued any similar exonerating order. SSA will also
find good cause to continue or repay benefits if the beneficiary was erroneously
implicated in the criminal offense because of identity fraud. 4 Beneficiaries may request
good cause for these reasons at any time.

Additionally, the Agency can determine that good cause exists and continue benefit
payments if the criminal offense – or in the case of probation or parole violators, both
the violation and the underlying offense – was non-violent and not drug related, and



3
 The FFSCF is used to establish, monitor, and control warrant information SSA receives from warrant
sources and ensure SSA reacts timely to the warrant information.
4
 The Social Security Act §§ 202(x)(1)(A)(iv)-(v) and (B)(iii)-(iv), 42 U.S.C. §§ 402(x)(1)(A)(iv)-(v) and
(B)(iii)-(iv), as amended by § 203(a) of the Social Security Protection Act of 2004, Pub. L. No. 108-203
§ 203(a), March 2, 2004, and the Social Security Act §1611(e)(4), 42 U.S.C. § 1382(e)(4), as amended by
§ 203(b) of the Social Security Protection Act of 2004, Pub. L. No. 108-203 § 203(b), March 2, 2004.


The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)                              2
certain mitigating factors exist. 5 Beneficiaries may request good cause for these
reasons up to 12 months from the date of SSA’s letter, and they have 90 days after
requesting good cause to provide sufficient evidence.

The mitigating factors SSA considers are as follows.

         The beneficiary had not been convicted of any subsequent felony crimes since the
          warrant was issued, and the law enforcement agency that issued the warrant will not
          extradite the fugitive felon or is unwilling to act on the warrant.
         The beneficiary had not been convicted of any subsequent felony crimes since the
          warrant was issued; the warrant is/was the only existing warrant and was issued
          10 or more years before the date SSA processed the current warrant information;
          and the beneficiary is incapable of managing payments, resides in a long-term care
          facility, is legally incompetent, or lacks the mental capacity to resolve a warrant.

If sufficient evidence is not provided to SSA, it will not find good cause.

How Often the Agency Found Good Cause in the Fugitive Felon Program

SSA made good cause determinations for 21,542 beneficiaries from a population of
more than 400,000 individuals with warrants. As shown in Table 1, the Agency found
good cause in 20,174 cases and did not find good cause in 1,368 cases.

                                                  Number of
    Table 1: Good Cause Decisions                                           Portion
                                                 Beneficiaries
    SSA found good cause                               20,174                93.6%
    SSA did not find good cause                         1,368                 6.4%
    TOTAL                                              21,542                 100%

Fugitive Cases Where Good Cause Was Not Found and Whether the Person
Appeared to Meet the Good Cause Criteria

Based on our sample, in most of the 1,368 cases where good cause was not found, the
beneficiary did not meet the good cause criteria. We estimate the Agency properly did
not find good cause for about 1,040 individuals. However, we could not determine
whether the good cause denial decision was proper in about 301 cases.

Specifically, we analyzed a random sample of 50 of the 1,368 individuals to whom SSA
did not find good cause. We determined in
• 38 cases (76 percent), the final determination made by SSA appeared to be proper; 6

5
    Id.
6
 In one case, SSA did not find good cause, but the individual appealed SSA’s determination to the
administrative law judge level. The judge decided good cause should be found, and SSA restored the
benefits.

The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)                            3
• 11 cases (22 percent), we could not determine whether the denial was appropriate
   based on the documentation and information available in SSA’s systems; and
• 1 case (2 percent), the denial appeared to be improper. In this case, the individual’s
   offense was non-violent and not drug-related, the individual had not been convicted
   of any subsequent felonies, no other warrants existed, and the warrant was issued
   more than 10 years before it was matched to the beneficiary’s SSA record.
   Additionally, SSA’s records indicated the individual lacked the mental capacity to
   resolve the warrant—one of the mitigating good cause criteria. Therefore, it
   appeared good cause criteria had been met.

Whether the Agency Is Effectively Administering the Good Cause Provision in the
Fugitive Felon Program

We found the Agency generally administered the good cause provision in the fugitive
felon program effectively.

We analyzed a sample of 275 individuals from a population of 454,756 individuals with
warrants as of October 2009. We reviewed records on SSA’s system and found in

• 154 cases (56 percent), no evidence that a good cause exemption was requested. 7
   In 20 of these cases, SSA’s records indicated the individual lacked the capacity to
   resolve a warrant, 8 yet the individual did not have a representative payee. 9 We sent
   cases needing action to SSA.
• 104 cases (38 percent), good cause did not apply; and 10
• 17 cases (6 percent), good cause was determined. SSA properly did not find good
   cause in 2 cases and the Agency found good cause in15 cases. Good cause
   appeared to be properly found in 13 of these cases 11 and not properly found in
   2 cases. 12



7
    Twelve beneficiaries were still within the due process time period to request a good cause exemption.
8
  Per SSA’s POMS, GN 02613.910, specific medical impairment codes on a beneficiary’s record indicate
the person lacks the mental capacity to resolve a warrant.
9
 Some individuals cannot manage their finances because of their youth, mental and/or physical
impairments. Congress granted SSA the authority to appoint representative payees to receive and
manage these individuals’ Social Security benefits.
10
  Of these 104 individuals, 76 did not receive benefits while having an unsatisfied warrant, 22 did not
have a period of fugitive suspense after the good cause provision became effective, and 6 had
misdemeanor—not felony or probation or parole violation—warrants.
11
   In two of these cases, the determinations appeared proper; however, SSA did not repay the individuals
all funds it had recovered as fugitive overpayments. We did not evaluate whether SSA held the funds
because of another nonpayment provision of the Social Security Act.
12
     Good cause was not properly found in these cases because the offenses were violent or drug-related.

The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)                                   4
                                                                   Conclusion
Generally, SSA administered the fugitive good cause provision effectively when
individuals requested exemption under the good cause provision. SSA informs
beneficiaries of the good cause provision, but the Agency only reviews cases for
possible good cause exemptions when requested by the beneficiary.

The burden is on the beneficiary to request a good cause exemption and provide
evidence to support the good cause determination.




The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)          5
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Additional Background
APPENDIX C – Scope, Methodology, and Sample Results




The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)
                                                                        Appendix A

Acronyms
    FFSCF              Fugitive Felon SSA Control File

    NICMS              National Investigative Case Management System

    OIG                Office of the Inspector General

    POMS               Program Operations Manual System

    Pub. L. No.        Public Law Number

    SSA                Social Security Administration

    U.S.C.             United States Code




The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)
                                                                                  Appendix B

Additional Background
GOOD CAUSE PROVISION

The Social Security Act prohibits payment of benefits to individuals fleeing to avoid
prosecution, custody, or confinement for felonies or violating a condition of probation or
parole under Federal or State law. It also provides for the Social Security
Administration (SSA) to continue payments to beneficiaries who have unsatisfied
warrants if there is good cause to do so. 1

Before SSA takes action to suspend benefit payments, it sends the beneficiary a notice
about the warrant information the Agency has received and the impact it may have on
benefit payments. The notice also advises the beneficiary of his or her rights to file an
appeal or request a waiver. Finally, the letter informs the beneficiary of the conditions
that must be met for the Agency to find that there is good cause to continue the benefit
payments. The burden for good cause is on the beneficiary.

THE GOOD CAUSE PROCESS

The Agency will determine that good cause exists and continue benefit payments if 2

     a court of competent jurisdiction found the person not guilty of the criminal offense or
      probation or parole violation, dismissed the charges relating to the criminal offense
      or probation or parole violation on the unsatisfied warrant, vacated the warrant for
      arrest for the criminal offense or probation or parole violation, or issued any similar
      exonerating order or has taken similar exonerating action or
     the individual was erroneously implicated in the criminal offense or a probation or
      parole violation based on identity fraud.

If neither of these conditions apply, Agency policy indicates it will give the beneficiary
the opportunity to establish good cause based on mitigating circumstances if (1) the
criminal offense or probation/parole violation on which the beneficiary was charged or
convicted was non-violent and not drug-related, and, in the case of probation or parole
violators, the original offense was also non-violent and not drug related; (2) the
beneficiary was not convicted of any subsequent felony crimes since the warrant was


1
 The Social Security Act §§ 202(x)(1)(A)(iv)-(v) and (B)(iii)-(iv), 42 U.S.C. §§ 402(x)(1)(A)(iv)-(v) and
(B)(iii)-(iv), as amended by § 203(a) of the Social Security Protection Act of 2004, Pub. L. No. 108-203
§ 203(a), March 2, 2004, and the Social Security Act §1611(e)(4), 42 U.S.C. § 1382(e)(4), as amended by
§ 203(b) of the Social Security Protection Act of 2004, Pub. L. No. 108-203 § 203(b), March 2, 2004.
2
    SSA, POMS GN 02613.025 B.1.


The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)                            B-1
issued; and (3) other mitigating factors exist, as set forth below under Option A or
Option B. 3 For a finding of good cause in these circumstances, all the factors in either
Option A or Option B must be met.

Additionally to Meet Option A

     The law enforcement agency that issued the warrant reports it will not extradite the
      fugitive felon or is unwilling to act on the warrant.

Additionally to Meet Option B

     The warrant is/was the only existing warrant and was issued 10 or more years
      before the date the Fugitive Felon Match processed the current warrant information
      and
     The beneficiary
       lacks the mental capacity to resolve a warrant as evidenced by one of the
        diagnosis codes listed in a specific Agency policy,
       is incapable of managing payments,
       is legally incompetent,
       has a representative payee appointed by SSA to handle payments, or
       is residing in a long-term care facility, such as a nursing home or mental
        treatment/care facility.

Figure 1 illustrates the fugitive good cause process.




3
    SSA, POMS GN 02613.025.B.2.a & b.



The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)                B-2
The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)   B-3
The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)   B-4
                                                                                      Appendix C

Scope, Methodology, and Sample Results
To accomplish our objective, we:

       Researched the Social Security Act, the Social Security Protection Act of 2004, 1
        and the Social Security Administration’s (SSA) regulations, policies, and
        procedures related to good cause in the fugitive felon program.

       Reviewed Office of the Inspector General reports related to fugitive felons and
        probation or parole violators. Specifically, we reviewed the following reports.
         Title II Benefits to Fugitive Felons and Probation or Parole Violators
          (A-01-07-17039), July 2008.

         The Social Security Administration’s Fugitive Felon Program and the Martinez
          Settlement Agreement (A-01-09-29177), October 2009

         Semiannual Report to Congress, October 1, 2008 – March 31, 2009.

       Obtained a data file of 454,756 fugitives and probation or parole violators in the
        Office of the Inspector General’s National Investigative Case Management System
        (NICMS) as of October 2009. 2 We analyzed a random sample of 275 cases from
        this file to determine whether good cause had been requested and assess SSA’s
        good cause determinations.

       Obtained a data file of 483,966 individuals with warrants in the Fugitive Felon SSA
        Control File (FFSCF) as of December 2009. 3 We analyzed these data and
        identified 21,542 individuals whose records indicated SSA found or did not find
        good cause. The Agency found good cause in 20,174 cases and did not find good
        cause in 1,368 cases. We analyzed a random sample of 50 of 1,368 cases in
        which SSA did not find good cause to determine whether this was proper.




1
    Pub. L. No. 108-203.
2
    NICMS is a centralized information system that contains warrant data, in addition to other information.
3
 FFSCF houses felony-type and probation or parole warrant information received from law enforcement
agencies thorough computer matching, and from the public.


The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)                                 C-1
We performed our review October 2009 through January 2010 in Boston,
Massachusetts. We tested the data used and determined them to be sufficiently
reliable to meet our objective. The entities reviewed were the Deputy Commissioner for
Systems and SSA field offices and program service centers under the Deputy
Commissioner for Operations. We conducted our review in accordance with the
President’s Council on Integrity and Efficiency’s Quality Standards for Inspections. 4

SAMPLE RESULTS FOR INDIVIDUALS IN THE FFSCF FOR WHOM
SSA DID NOT FIND GOOD CAUSE

    Table C-1: Population and Sample Size
    Population size                                                              1,368
    Sample size                                                                      50
    Note: All Projections are at the 90-percent confidence level.

    Table C-2: Good Cause Properly Not Found                        Number of Beneficiaries
    Sample Results                                                                   38
    Point Estimate                                                               1,040
       Projection Lower Limit                                                      879
       Projection Upper Limit                                                    1,168

    Table C-3: Unable to Determine Whether Good
                                                                    Number of Beneficiaries
    Cause Was Properly Not Found 5
    Sample Results                                                                   11
    Point Estimate                                                                 301
       Projection Lower Limit                                                      178
       Projection Upper Limit                                                      459




4
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008,
Pub. L. No. 110-409 § 7, 5 U.S.C. App. 3 § 11.
5
 To determine whether good cause was properly not found, we reviewed the information on SSA’s
benefit payment records, FFSCF, and electronic documentation systems. In these 11 cases, we could
not determine from this information if SSA properly did not find good cause.


The Good Cause Provision Under the Fugitive Felon Program (A-01-10-21052)                             C-2
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
